HHS/OIG-Audit--"Superfund Financial Activities at the Agency for Toxic Substances and Disease Registry for Fiscal Year 1992, (A-04-93-04518)"
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Superfund Financial Activities at the Agency for Toxic Substances and Disease Registry for Fiscal Year 1992," (A-04-93-04518)
July 26, 1994
Complete
Text of Report is available in PDF format (1.98 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report points out that the Agency for Toxic Substances and Disease Registry (ATSDR) obligated $56.2 million
and disbursed about $54.8 million in Superfund resources during FY 1992. The ATSDR generally administered the fund according
to Superfund legislation, however, the Centers for Disease Control and Prevention (CDC) and ATSDR did not have procedures
in place to ensure that all Superfund grantees had obtained independent audits. We are recommending that the Public Health
Service (PHS) direct CDC and ATSDR to establish procedures to ensure that all Superfund grantees submit audit reports,
sanction grantees unwilling to have a proper audit, and require the 16 grantees identified in this report to obtain the
necessary audits. The PHS generally concurred with our recommendations.